  Department of Health and Human Services
                     OFFICE OF 

                INSPECTOR GENERAL 





NORTH CAROLINA MEDICAID OVERPAID 

  HOSPITALS FOR SOl\tiE INPATIENT 

   SERVICES THAT MEDICARE PAID 




    Inquiries about this report may be addressed to the Office ofPublic Affairs at 

                             Public.A[fairs@oig. hhs. gov. 





                                                      Lori S. Pilcher
                                                 Regional Inspector General

                                                          May 2013
                                                        A-04-11-06137



                               (

                         Office ofInspector Ge11eral
                                         https:/ / oig.hhs.gov



The mission of the Office oflnspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Depat1ment of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office oflnvestigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY 


  North Carolina Medicaid overpaid hospitals $576,408for some ofthe same inpatient
  hospital services that Medicare had already paid.


WHY WE DID THIS REVIEW

Medicaid provides health coverage to 8.3 million "dually eligible" low-income seniors and
people with disabilities, who are enrolled in both Medicaid and Medicare. However, Medicaid is
the payer of last resort and should not pay for medical costs when there is another responsible
entity (or program), including Medicare. The Office oflnspector General has consistently
identified Medicaid overpayment issues. In this audit, we focused on Medicaid overpayments
when Medicare and Medicaid both pay for the same services. We are conducting this audit in
multiple States.

Our objective was to determine whether the North Carolina Division of Medical Assistance
(State agency) overpaid Medicaid inpatient claims from hospitals that had received Medicare
payments for the same services.

BACKGROUND

Federal and State Governments jointly fund the Medicaid program. The Medicaid program is
intended to be the payer of last resort; that is, all third party insurance carriers, including
Medicare, must meet their legal obligation to pay claims before the Medicaid program pays for
the care of an individual on Medicaid (section 1902(a)(25) of the Social Security Act).
Overpayments occur when the State agency inappropriately pays claims that a third party is
responsible for paying. In North Carolina, the State agency administers the Medicaid program.

WHAT WE FOUND

The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Of the 657 overpayments ($3,045,413 Federal share)
that we reviewed for the 3-year period January 1, 2007, through December 31, 2009, the
hospitals had refunded 533 prior to our audit. However, the hospitals had not refunded the
remaining 124. The hospitals had not refunded half of the 124 Medicaid overpayments because
of system errors, but we cannot comment on why the hospitals had not refunded the remaining
62 overpayments because the State agency could not provide documentation. As a result, the
State agency made Medicaid overpayments to hospitals totaling $576,408 ($401,751 Federal
share).

WHAT WE RECOMMEND

We recommend that the State agency:

    •   recover $576,408 in Medicaid overpayments,


Medicaid Overpaid for Some Medicare Services in North Carolina (A-04-1 1-061 37)
    • 	 refund $40 1,751 to the Federal Government,

    • 	 correct the system errors that caused the overpayments, and

    • 	 implement internal controls that ensure all refunds are properly processed and
        documented.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take.




Medicaid Overpaid for Some Medicare Services in North Carolina (A-04-11-06137)              ii
                                                     TABLE OF CONTENTS 


                                                                                                                                         PAGE 


INTRODUCTION ...................................................................................................................... 1 


           Why We Did This Review .............................................................................................. 1 


           Objective .......................................................................................................................... 1 


           Background ..................................................................................................................... 1 

                 The Medicaid Program ......................................................................................... 1 

                 Medicaid Payer of Last Resort .. ... ...... .. ..... .. ... ........ .. ... .. ... ... ... ... .......................... . 1 

                 Division of Medical Assistance ............................................................................ 2 


           How We Conducted This Review .................................................................................. 2 

                                                                                                                                            ,
FINDINGS ................................................................................................................................... 2 


           Medicaid Overpayments Not Recovered ...................................................................... 2 


           Why Did Overpayments Occur? ................................................................................... 3 


RECOMMENDATIONS ...... ... ....... ........ ........... .... .. ......... ........ .............. .... ... ....... .. .. ..... ... ........ .. 4 


STATE AGENCY COMMENTS .............................................................................................. 4 


APPENDIXES 


           A: Audit Scope and Methodology ................................................................................ 5 


           B: Federal and State Requirements ............................................................................. 7 


           C: State Agency Comments .......................................................................................... 8 





Medicaid Overpaid for Some Medicare Services in North Carolina (A-04-11 -06137)                                                                  iii
                                           INTRODUCTION 


WHY WE DID THIS REVIEW 


Medicaid provides health coverage to 8.3 million "dually eligible" low-income seniors and
people with disabilities, who are enrolled in both Medicaid and Medicare. However, Medicaid is
the payer of last resort and should not pay for medical costs when there is another responsible
entity (or program), including Medicare. The Office of Inspector General has consistently
identified Medicaid overpayment issues. In this audit, we focused on Medicaid overpayments
when Medicare and Medicaid both pay for the same services. We are conducting this audit in
multiple States.

OBJECTIVE

Our objective was to determine whether the North Carolina Division of Medical Assistance
(State agency) overpaid Medicaid inpatient claims from hospitals that had received Medicare
payments for the same services.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. Although the State has considerable flexibility in designing and
operating its Medicaid program, it must comply with applicable Federal requirements.

The amount that the Federal Government reimburses to State Medicaid agencies is determined
by the Federal medical assistance percentage, which varies based on a State's relative per capita
mcome. This percentage is commonly known as Federal financial participation or the Federal
share.

Medicaid Payer of Last Resort

The Medicaid program is intended to be the payer of last resort; that is, all third party insurance
carriers, including Medicare, must meet their legal obligation to pay claims before the Medicaid
program pays for the care of an individual on Medicaid (section 1902(a)(25) of the Social
Security Act (the Act)). Overpayments occur when the State agency inappropriately pays claims
that a third party is responsible for paying. When both Medicare and Medicaid coverage apply,
Medicare is the primary payer.

The State agency must recover Medicaid payments when Medicaid pays for services for an
individual who has Medicare as the primary payer. This payment constitutes an overpayment.




Medicaid Overpaidfor Som e Medicare Services in North Carolina (A-04-11 -06137)                     1
Division of Medical Assistance

In North Carolina, the State agency administers the Medicaid program. Within the State agency,
the Program Integrity Unit is responsible for identifying Medicaid overpayments. As part of the
unit, the Third-Party Recovery Section is primarily responsible for recovering Medicaid
payments that other insurance plans should have paid.

The State agency utilizes Medicaid integrity contractors to perform certain functions in
identifying third party payments. One contractor performs integrity audits to help identify
Medicaid overpayments and conducts Medicare Recovery services on behalf of the State agency.
Part of its process is to identify duplicate payments from the State agency's system.

HOW WE CONDUCTED THIS REVIEW

We reviewed 657 Medicaid overpayments for inpatient services that Medicare also paid, totaling
$4,449,630 ($3,045,413 Federal share), submitted by 73 hospitals in North Carolina for the
3-year period January 1, 2007, through December 31, 2009. Our audit population did not
include claims in which Medicaid paid only for the deductible, coinsurance, or both for the
inpatient stay.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                               FINDINGS

The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Of the 657 overpayments that we reviewed for the
3-year period January 1, 2007, through December 31, 2009, the hospitals had refunded 533 prior
to our audit. However, the hospitals had not refunded the remaining 124. The hospitals had not
refunded half of the 124 Medicaid overpayments because of system errors, but we cannot
comment on why the hospitals had not refunded the remaining 62 overpayments because the
State agency could not provide documentation. As a result, the State agency made Medicaid
overpayments to hospitals totaling $576,408 ($401,751 Federal share).

For details on the Federal and State requirements related to the Medicaid overpayments, see
Appendix B.

MEDICAID OVERPAYMENTS NOT RECOVERED

Section 1903(d)(2)(A) of the Act provides that the State should refund the Federal portion of any
overpayment. An overpayment is the amount paid by a Medicaid agency to a provider that



Medicaid Overpaidfor Some Medicare Services in North Carolina (A-04-11 -06137)                  2
exceeds the amount that is allowable for services furnished under the State plan (42 CFR
§ 433.304).

The State agency overpaid some Medicaid inpatient claims from hospitals that had received
Medicare payments for the same services. Ofthe 657 overpayments we reviewed, the hospitals
had refunded 533 prior to the start of our audit. However, the hospitals had not refunded to CMS
the remaining 124 Medicaid overpayments totaling $576,408 ($401,751 Federal share).
Specifically:

       • 	 For 62 of the 124 overpayments, totaling $256,503, the State agency excluded claims
           from additional edit cycles once the initial cycle flagged the claims for rate adjustments
           (EOB 9996). Thus the hospitals did not refund the overpayments because the State
           agency neither included these claims in the Medicare Adjustment Cycle nor reviewed
           them for reprocessing.

       • 	 For 62 of the 124 overpayments, totaling $319,905, the State agency could not provide
           documentation to support any repayment efforts for these claims. Thus we could not
           determine why the hospitals had not refunded these overpayments.




                  System Errors 	                                                      No Support
                     $256,503 	                                                         $319,905




WHY DID OVERPAYMENTS OCCUR?

The hospitals did not refund half of the Medicaid overpayments because of system errors. That
is, the software used to check for edits, referred to as the "adjustment checker," incorrectly
excluded 62 claims from adjustment. As a result, the State agency never sent these claims to the
Third Party Recovery Section 1 for review and did not adjust them in the State's Medicaid
Management Information System.


1
    For an explanation of the function of the Third Party Recovery Section, see Appendix B.


Medicaid Overpaidfor Some Medicare Services in North Carolina (A -04-11-0613 7)                         3
Regarding the remaining 62 Medicaid overpayments, the State agency was unable to provide
documentation to support any repayment efforts. Therefore, we were unable to determine why
the hospitals had not refunded these overpayments.

                                       RECOMMENDATIONS

We recommend that the State agency:

    • 	 recover $576,408 in Medicaid overpayments,

    • 	 refund $40 1,751 to the Federal Govemment,

    • 	 correct the system errors that caused the overpayments, and

    • 	 implement internal controls that ensure all refunds are properly processed and 

        documented. 


                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our findings and
recommendations and described corrective actions that it had taken or planned to take. The State
agency's comments are included in their entirety as Appendix C.




Medicaid Overpaid for Some Medicare Services in North Carolina (A-04-11 -06137)                4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE

Our review covered a population of 657 Medicaid overpayments for inpatient services that
Medicare also paid, totaling $4,449,630 ($3,045,413 Federal share), submitted by 73 hospitals in
North Carolina for the period January 1, 2007, through December 31, 2009. Our audit
population did not include claims in which Medicaid paid only for the deductible, coinsurance,
or both for the inpatient stay.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Instead, we limited our internal control review to the objective of our audit.

We conducted fieldwork at the State agency in Raleigh, North Carolina, and at various hospitals
throughout North Carolina.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal and State requirements and the North Carolina State 

        Medicaid plan, 


    • 	 interviewed State agency officials to understand their policies and procedures for 

        determining Medicare and Medicaid dual eligibility, 


    • 	 obtained data for paid Medicaid and Medicare inpatient claims,

    • 	 performed a data match of the Medicaid and Medicare inpatient claims for overpayments
        for the same beneficiary for the same date of service,

    • 	 reviewed all of the matching 657 overpayments that had Medicare and Medicaid inpatient
        claims for the same beneficiary for the same date of service,

    • 	 obtained documentation from providers and the State agency to support repayment of
        Medicaid payments,

    • 	 provided State agency officials with a listing of the overpayments for validation,

    • 	 calculated the overpayment amount (Federal share), and

    • 	 discussed our results with State agency officials.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit


Medicaid Overpaid for Some Medicare Services in North Carolina (A-04-11-06137)                    5
objectives. We believe the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.




Medicaid Overpaid for Some Medicare Services in North Carolina (A -04-11-0613 7)               6
                  APPENDIX B: FEDERAL AND STATE REQUIREMENTS 


FEDERAL REQUIREMENTS

The State or local agency administering a State plan for medical assistance will take all
reasonable measures to ascertain the legal liability of third parties to pay for care and services
available under the plan. By law, the Medicaid program is intended to be the payer oflast resort;
that is, all other available third party resources must meet their legal obligation to pay claims
before the Medicaid program pays for the care of an individual eligible for Medicaid (Section
1902(a)(25) of the Act). This means that all third party insurance carriers, including Medicare,
must pay before Medicaid processes the claim.

In instances when Medicaid should not have paid because Medicare was the primary payer, the
State agency should recover the Medicaid payments, which are considered overpayments.
Federal regulations (42 CFR § 433.304) define an overpayment as"... the amount paid by a
Medicaid agency to a provider in excess of the amount that is allowable for the services
furnished under section 1902 of the Act and which is required to be refunded under section 1903
of the Act."

Federal regulations, 42 CFR § 433.312(a), also require that the State must refund the Federal
share of unallowable overpayments made to Medicaid providers.

STATE REQUIREMENTS

The North Carolina Administrative Code (Administrative Code), 22 F .0601, states that the
Medicaid agency will seek full restitution of any and all improper payments made to providers
by the Medicaid program. The Administrative Code (22 G .021 0) also states that for payment of
Medicare Part A deductibles, the State agency must pay the Medicaid diagnosis-related group
payment, less the amount paid by Medicare.

In addition, the State agency's Hospital Provider Manual, chapter 8, Reimbursement and Billing,
states that Federal regulations require Medicaid to be the "payer of last resort." This means that
all third parties, including Medicare, must pay before Medicaid may pay. Additionally,
providers must report c;my such payments from third parties on claims filed for Medicaid
payment.

Chapter 8 also states that the function of the Third Party Recovery Section is to ensure that
Medicaid is the payer of last resort. If a recipient is identified as having Medicare coverage, the
Third Party Recovery Section forwards a refund letter to the provider.




Medicaid Overpaidfor Som e Medicare Services in North Carolina (A-04-11-06137)                        7
                          APPENDIX C: STATE AGENCY COMMENTS 





                         North Carolina Department of Health and Human Services
           Pat McCrory                                                                                 Aldona Z. Wos, M.D.
           Governor                                                                                    Ambassador .(Ret.)
                                                                                                       Secretary DHHS


                                                         April21, 2013



            Lori S. Pilcher, Regional Inspector 

            General for Audit Services 

            Office of Audit Services, Region IV 

            61 Forsyth Street, SW, Suite 3t41 

            Atlanta, GA 30303 


            Re: Report Number: A -04-11-0613 7

            Dear Ms. Pilcher:

            We have reviewed your draft report entitled North Carolina Medicaid Overpaid Hospitals for 

            Some Inpatient Services that ~Medicare Paid. The following represents our response and 

            corrective action plan to the Audit Findings and Recommendations. 


            Summary of Finding

            The State agency overpaid some Medicaid inpatient claims from hospitals that had received 

            Medicare payments for the same services. Of the 657 overpayments that we reviewed, the 

            hospitals had refunded 533 prior to our audit. However, the hospitals had not refunded the 

            remaining 124. The hospitals had not refunded half of the 124 Medicaid overpayments because 

            of system errors, but we cannot comment on why the hospitals had not refunded the remaining 

            62 overpayments because the State agency could not provide documentation. As a result, the 

            State agency made Medicaid overpayments to hospitals totaling $576,408 ($401,751 Federal 

            share). 


            Recommendations

            We recommend that the State agency:
               • 	 recover $576,408 in Medicaid overpayments,
              • 	 refund $401,751 to the Federal Govermnent,
              • 	 correct the system errors that caused the overpayments, and
              • 	 implement internal controls that ensure all refunds are properly processed and 

                   documented. 




                                                           www.ncdhhs.gov 

                                           Telephone 919-855-4800 • Fax 919-715-4645 

                                 Location: I 0 I Blair Drive • Adams Building • Raleigh, NC 27603 

                                Mailing Address: 2001 Mail Service Center • Raleigh, NC 27699-2001 

                                        An Equal Opportunity I Affirmative Action Employer 





Medicaid Overpaid for Some Medicare Services in North Carolina (A-04-11 -06137)                                              8
            Ms. Loris S. Pilcher
            Aprill8, 2013
            Page 2 of 3

             DHHS Response: The Department concurs with thefinding and recommendations
            presented in this report, and will recover the $576,408 in overpayments and refund the
             Federal share of$401, 751 within 60 days ofthe issuance ofthe final report. In addition,
            the Department will enhance efforts to recover additional overpayments and realize
            future savings by establishing procedures that will prevent operational errors that result
            in overpayments. In this regard, the Department will implement corrective actions to
            lessen the future risk ofproviders neglecting to properly refund Medicaid ovnpayments.
            Specifically, the Program Integrity Section ofthe Division ofMedical Assistance (DMA)
            will take the following actions to address the three types oferrors that allowed the
            overpayments to occur.

            (1) As identified during the audit, one type oferror resulted from the programming ofthe
            contractor's Acijustment Checker to identifY claims that were previously acijusted in the
            Medicaid Management Information System. These claims were excluded from the
            Medicare Recovery Cycles to avoid double recoupment. A review ofthis system
            indicated that claims that had undergone a small adjustment, such as a rate adjustment,
            were taken out ofthe Cycles, and overpayments were not appropriately recovered. This
            issue was addressed with the contractor, which now thoroughly researches the outcome
            ofthe Acijustment Checker before claims are removedfrotn the Cycle.

             (2) The Medicare Enrollment Data Base (EDB) file that the contractor receives from
            Centers for Medicare and Medicaid Services includes Retroactive Medicare Eligibility.
             When the contractor matches dual eligibility with claims paid by Medicaid, it is often too
            late for Providers to submit the claims to Medicare. To prevent hardship to providers,
            the contractor excluded any claims that the providers could not file in a timely manner
            from its Medicare Recovery Cycles. As a result ofthe audit findings, the Department
            informed the contractor that in most ofthe cases the provider had already received
            payment_from Medicare and Medicaidfor the same claims. The Department is working
            with the contractor to establish a process whereby a revised letter will be sent to the
            provider for recovery ofthe overpayment amounts. Due to the duplicate payments made
            by Medicare and Medicaid, the Department and the contractor will increase utilization of
            the credit balance audit and credit balance self-reporting processes to determine when
            overpayments occur and will immediately take action to recover the funds.

            (3) Based on a 2006 lawsuit brought against the Department by several hospitals, the
            contractor was instructed not to include these hospitals in the overpayment reviews
            pending the outcome ofthe lawsuit. The Department prevailed in the lawsuit in 2009 and
            the contractor was instructed to reestablish these providers as part ofthe Medicare
            Recovery Cycles. Unfortunately, the Department thought the claims not paid during the
            pendency ofthe lawsuit were beyond timely filing and did not instruct the contractor to
            go back to recover any overpayments. Had the Department been aware that these
            providers received payments from Medicare, recovery would have been pursued at that
            time. Since the 0/G has now iriformed the Department that these providers received
            payments from Medicare and Medicaid, the necessary steps to recover these
            overpayments will be taken. In the foture, the Department will track all claims submitted




Medicaid Overpaidfor Some Medicare Services in North Carolina (A-04-11 -061 37)                           9
            Ms. Loris S. Pilcher
            Aprill8, 2013
            Page 3 of 3

            by providers that are involved in any lawsuit and will immediately pursue recovery ofall
           funds owed to the Department at the conclusion ofthe lawsuit.

           The Department is committed to improving the Medicaid program and will continue its
           efforts to make the program more efficient and effective in meeting the needs ofMedicaid
           recipients, providers and taxpayers. The Department will address all issues contained in
           this report and will continue to move forward with efforts to identifY and correct
           problems.

            We greatly appreciate the professionalism of the OIG audit staff and the analysis and
            recommendations provided in the draft report. If you need any additional information,
            please contact Mary Jolmson at (919)855-3738.


            Sincerely,


             ~6
            Aldona Wos, M.D.
            Secretary

            AW:mrj


            cc: 	 Sherry Bradsher, Deputy Secretary
                  Matthew McKillip, Senior Policy Advisor
                  Joseph Cooper, Jr. , Chief Information Officer
                  Carol Steckel, Director, Division of Medical Assistance
                  Angeline Sligh, Director, Office of Medicaid Management Information System Services
                  Pyreddy Reddy, Chieflnformation Security Officer
                  Emery E. Milliken, General Counsel
                  Jim Slate, Director, Budget and Analysis
                  Laketha M. Miller, Controller
                Chet Spruill, Internal Audit Director
                Monica Hughes, Audit Resolution & Monitoring Branch Head




Medicaid Overpaidfor Some Medicare Services in North Carolina (A-04-1 1-0613 7)                         10
